<html>
<title> - INNOVATIVE APPROACHES TO MEETING THE WORKFORCE NEEDS OF SMALL BUSINESSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     INNOVATIVE APPROACHES TO MEETING THE WORKFORCE NEEDS OF SMALL 
                               BUSINESSES 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 8, 2011

                               __________

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 112-032
              Available via the GPO Website: www.fdsys.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

77-563 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
                     ROBERT T. SCHILLING, Illinois
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                        JANICE HAHN, California
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page
Graves, Hon. Sam.................................................     1
Velazquez, Hon. Nydia............................................     2

                               WITNESSES

Ms. Jennifer McNelly, Senior Vice President, The Manufacturing 
  Institute, Washington, DC......................................     3
Dr. Robert Scott Ralls, President, The North Carolina Community 
  College System, Raleigh, NC....................................     5
Mr. Scott Watkins, CEO, Modern Tech Squad, Bonifay, FL...........     8
Mr. Roger Tadajewski, Executive Director, National Coalition of 
  Certification Centers, Kenosha, WI.............................    10

                                APPENDIX

Prepared Statements:
    Ms. Jennifer McNelly, Senior Vice President, The 
      Manufacturing Institute, Washington, DC....................    22
    Dr. Robert Scott Ralls, President, The North Carolina 
      Community College System, Raleigh, NC......................    26
    Mr. Scott Watkins, CEO, Modern Tech Squad, Bonifay, FL.......    31
    Mr. Roger Tadajewski, Executive Director, National Coalition 
      of Certification Centers, Kenosha, WI......................    35
Questions for the Record:
    Congressman Owens Questions for Ms. Jennifer McNelly.........    38
    Congressman Owens Questions for Dr. Robert Scott Ralls.......    39
    Congressman Owens Questions for Mr. Roger Tadajewski.........    40
Answers for the Record:
    Ms. Jennifer McNelly, Senior Vice President, The 
      Manufacturing Institute, Washington, DC....................    41
    Dr. Robert Scott Ralls, President, The North Carolina 
      Community College System, Raleigh, NC......................    43
    Mr. Roger Tadajewski, Executive Director, National Coalition 
      of Certification Centers, Kenosha, WI......................    45
Additional Materials for the Record:
    Rep. Joe Donnelly Statement for the Record...................    46
    CompTIA Statement for the Record.............................    48


     INNOVATIVE APPROACHES TO MEETING THE WORKFORCE NEEDS OF SMALL 
                               BUSINESSES

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2011

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:07 p.m., in room 
2360, Rayburn House Office Building, Hon. Sam Graves (chairman 
of the Committee) presiding.
    Present: Representatives Graves, Chabot, King, Coffman, 
Tipton, West, Ellmers, Velazquez, Clarke, Cicilline, and Owens.
    Chairman Graves. Good afternoon, everybody. I call the 
hearing to order.
    I thank everyone for joining us. I also want to thank our 
witnesses for appearing today. I look forward to hearing your 
testimony.
    The purpose of today's hearing is to examine the workforce 
needs of small businesses and the newer, more innovative 
programs that are being created to meet those needs.
    The domestic economy has experienced profound changes in 
the last generation. Advances in technology have made it 
possible for firms across the industry to increase the 
efficiencies of their workforce. Most agree that the future 
health and competitiveness of the domestic economy is dependent 
on continued innovation. These technological advances have also 
increased businesses' needs for workers who can understand and 
operate complex machinery and processes.
    While the economy remains mired in recession and more than 
14 million of our citizens remain out of work, a number of 
firms, including small businesses, report difficulty finding 
new workers with the requisite skills and knowledge for entry 
level positions. According to a recent survey by the National 
Federation of Independent Businesses, more than 33 percent of 
small firms report vacancies that remain unfilled because of a 
lack of qualified candidates.
    The situation is becoming so acute that some are beginning 
to question whether the skills gap is a contributing factor, 
along with the future budget, tax, and regulatory uncertainty, 
to weak economic growth and further job creation.
    When firms can't fill a job opening in a recession, it is 
clear that there is a problem. The United States spends 
hundreds of billions of dollars a year on education and 
workforce training programs, yet the current system is in many 
ways too complex and is failing to meet the needs of businesses 
and the students it educates. This is leading some to question 
whether the alternative paths to education and training can 
fill these programs.
    As in the past, the private sector is moving into the void 
and helping move forward with its own solutions to meet the 
workforce needs. Unfortunately, most small businesses don't 
have the resources or expertise to develop their own workforce 
training programs and their ability to influence the direction 
of existing workforce training programs can be limited.
    Proponents of industry led credentialing programs claim 
they help small businesses compensate for these limitations by 
providing students and workers with a broad base of 
occupational knowledge and skills necessary for entry level and 
more advanced jobs.
    The Committee is going to hear from four witnesses that are 
intimately involved in these efforts. I appreciate again their 
participation in this hearing. I know some of you traveled a 
ways, and I appreciate that as well.
    I now turn to Ranking Member Velazquez for her opening 
statement.
    Ms. Velazquez. Thank you, Mr. Chairman.
    As our Nation strives to regain its economic momentum, it 
is critical that companies of all sizes have access to the 
skilled workforce they need to succeed. In fact, in the next 
decade, nearly two-thirds of all job vacancies will require 
some postsecondary education, and this will only increase as 
the pace of technological change accelerates.
    For small businesses, a technically proficient workforce is 
particularly essential, as they create 70 percent of all new 
jobs. While this demand for skilled workers is increasing, 
educational attainment has, unfortunately, begun to fall. For 
the first time in American history, today's young adults risk 
having lower educational attainment rates than their parents.
    Although more than 70 percent of high school graduates 
enroll in advanced education, barely half complete their 
bachelor's degree within 6 years and less than one-third earn 
their associates degree within 3 years. And despite progress in 
improving high school graduation rates in the last decade, one-
fourth of all public high school students and nearly 40 percent 
of minorities will fail to graduate with their class. As a 
result, many employers find that graduates are ill-prepared in 
both technical education and basic skills such as oral and 
written communication and critical thinking.
    For businesses, this reality has dire consequences. If we 
are unable to meet the demand for trained workers, our economy 
will be less able to compete globally. The manufacturing sector 
in particular faces challenging obstacles due to this 
deficiency. A recent report found that roughly 80 percent of 
American manufacturers were unable to fill their vacancies with 
qualified laborers, and many foresee increased shortages ahead.
    For workers, this trend also has important ramifications. 
While demand for higher skilled labor is rising, many 
traditional lower skill jobs have been permanently lost during 
the economic downturn. The jobs that will replace them will be 
very difficult and require increasing amounts of skill and 
training.
    The Georgetown Center for Education and the Workforce found 
that, of an estimated 47 million jobs that will be created by 
2018, two-thirds of them will require workers with at least 
some college education. As a result, it is increasingly 
important not only for businesses but also the labor market and 
the economy overall to address this skills gap.
    Targeted postsecondary education such as skill 
certification systems can assist small firms secure qualified 
employees to help them grow. Novel partnerships among industry, 
educators, and policymakers are also playing a role by 
preparing the workforce and incentivizing school completion. 
Such direct career pathways between students and employers are 
vital. If proven successful, these efforts may be duplicated in 
regions and States throughout the country.
    Efforts such as these that we will discuss here today are 
critical to our economic recovery. By preparing America's 
workforce to compete in the global marketplace, firms will be 
better positioned to succeed, paving the way towards stronger 
growth. Prudent investment in training and education will also 
reduce the unemployment rate, leading to higher consumer 
confidence and demand. This is exactly what our Nation needs 
now as we look to turn the corner, create more jobs, and ensure 
that America's small businesses are prepared to move our 
economy forward.
    With that, I would like to take this opportunity to thank 
all the witnesses for being here today.
    Thank you. I yield back.
    Chairman Graves. We are going to have a series of votes 
coming up here before long, so are going to try to get through 
our opening statements as soon as possible and recess and come 
back. But in no way do I want you--you have each 5 minutes, but 
don't rush yourself as a result of that. Because we definitely 
want to hear what everybody has to say. Unfortunately, Nydia 
and I don't make the schedule. They won't listen to us.

  STATEMENTS OF JENNIFER McNELLY, SENIOR VICE PRESIDENT, THE 
MANUFACTURING INSTITUTE, WASHINGTON, D.C.; ROBERT SCOTT RALLS, 
    PRESIDENT, THE NORTH CAROLINA COMMUNITY COLLEGE SYSTEM, 
RALEIGH, NORTH CAROLINA; SCOTT WATKINS, CEO, MODERN TECH SQUAD, 
  BONIFAY, FLORIDA; AND ROGER TADAJEWSKI, EXECUTIVE DIRECTOR, 
NATIONAL COALITION OF CERTIFICATION CENTERS, KENOSHA, WISCONSIN

    Chairman Graves. Our first witness is Jennifer McNelly, who 
is the Senior Vice President of the Manufacturing Institute 
that is headquartered right here in Washington, D.C.
    In her capacity as Senior Vice President, Mrs. McNelly has 
been responsible for developing the NAM-Endorsed Skills 
Certification System which will be the subject of her testimony 
today. We appreciate you being here.

                 STATEMENT OF JENNIFER McNELLY

    Ms. McNelly. Chairman Graves, Ranking Member Velazquez, and 
members of the Committee, thank you for the opportunity to 
testify today.
    I am Jennifer McNelly, Senior Vice President of the 
Manufacturing Institute, a 501(c)(3) affiliate of the National 
Association of Manufacturers. Our mission is to support the 
Nation's manufacturers.
    For a generation now, the common perception has been that 
manufacturing in America is dying. But the facts show 
differently. The United States is the world's largest 
manufacturing economy, producing 21 percent of global 
manufactured products; manufacturing supports an estimated 18.6 
million jobs, one in six private sector jobs; manufacturing 
employees earn above the national average in salaries and 
benefits; and 93 percent of U.S. manufacturers employ less than 
100 workers.
    While manufacturing remains an important economic force in 
this Nation, it faces serious challenges: a significant 
increase in the structural costs; an absence of a coherent, 
coordinated national trade policy; the lack of an innovation 
strategy. And while these and other issues play out in the 
front pages of the newspapers, there is another challenge, one 
that threatens not only manufacturing but also companies in 
every sector: the deteriorating condition of our Nation's 
workforce. In our most recent skills gap survey just completed 
last week, 82 percent of our manufacturers reported a moderate-
to-serious shortage in skilled production labor.
    We have created an education system that is almost 
completely separate from the economy at large. Traditionally, 
it was the job of schools to educate children and companies to 
train their employees. Jobs for individuals with almost any 
education level were plentiful because companies would spend 
time and resources to turn them into productive employees. We 
don't have that luxury today. The only way to address this 
monumental challenge is to align education, economic 
development, workforce, and business agendas.
    As representatives of the manufacturing industry, we have 
found a solution that meets the needs of our businesses while 
working within the existing secondary and postsecondary 
structures. Our solution, the NAM-Endorsed Manufacturing Skills 
Certification System, certifies individuals have the basic 
skills to work in any sector of the manufacturing economy.
    We joined with leading certification organizations in 2009 
to create a system of nationally portable, industry recognized 
credentials. We were also pleased to have the President of the 
United States highlight our efforts a few months ago.
    Our system takes certification to the next level by 
organizing it, aligning it, and translating those credentials 
into corresponding education programs that are integrated into 
high schools and community and technical colleges across the 
Nation. And while on the face of it skill certifications may 
not seem transformational, it is in fact reforming education.
    Our system is integrated into four credit programs of 
study, so even if a student only takes a few classes but gains 
an industry credential and enters the workforce they have a 
pathway back into education for additional training and to 
advance to a degree. The system creates on and off ramps, 
allowing individuals to earn and learn as they progress in 
their careers.
    In addition to private sector alignments, we need to look 
at Federal investments, programs such as the Workforce 
Investment Act. They need to focus efforts on training 
individuals for skills in demand of industry. That is why the 
NAM supports H.R. 1325, the America Works Act.
    From an employer perspective, nationally portable, industry 
recognized credentials integrated into degree programs of study 
transforms their human resource approach. It nearly guarantees 
a level of quality in potential hires that does not exist 
today. It greatly reduces risk, a risk that is most significant 
to our small employers. Skill certifications enables small 
employers to improve their hiring practices by giving 
confidence that their employees can meet an industry standard.
    Mr. Chairman, for too many years anything that looked and 
sounded like skills development was not considered education. A 
wall was built by parties on both sides. And we are breaking 
down that wall today. The result will be more students in 
school, more individuals gaining the skills they need to build 
careers, and more employers finding the workers they need to 
hire.
    Thank you for the opportunity to testify. We look forward 
to working with you.
    Chairman Graves. Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    It is my pleasure to welcome Dr. R. Scott Ralls. He is the 
seventh president of the North Carolina Community College 
System. With 58 colleges serving approximately 900,000 students 
each year, the North Carolina Community College is one of the 
largest systems of higher education in the United States. It is 
internationally recognized for its programs to foster economic 
and workforce development.
    Prior to his current position, Dr. Ralls served as the 
president of Craven Community College during a time when the 
college achieved record enrollment growth.
    Welcome.

                STATEMENT OF ROBERT SCOTT RALLS

    Mr. Ralls. Thank you.
    Mr. Chairman, Ranking Member Velazquez, members of the 
Committee, it is an honor to be with you today.
    My name is Scott Ralls. I am president of the North 
Carolina Community College System. I represent a system that 
serves one out of every eight adults in the State of North 
Carolina.
    Our system originated as an innovation to foster Statewide 
economic prosperity through workforce development. In the 
1950s, North Carolina was one of the poorest States in the 
country on a per capita basis. We were limited to textiles, 
tobacco, and furniture production. During that time of economic 
challenge, Governor Luther Hodges proposed two education 
innovations to foster economic diversification and widely 
shared prosperity, innovations that were initially met with 
skepticism.
    One was the creation of a research park in the middle of a 
pine forest between three notable universities, what is now 
known as Research Triangle Park, the hub of one of the fastest-
growing technology economies in the United States.
    The other innovation was a system of industrial education 
centers located around the State. These centers were created 
for the sole purpose of training North Carolinians for jobs 
they had not previously performed, and they subsequently 
promoted the location and development of businesses not 
previously in existence in our State.
    Our current system of community colleges in North Carolina, 
today the most comprehensive in the Nation, emerged from this 
innovation, as did a mantra frequently heard in our State that 
education is economic development.
    Over the last half-century, a variety of workforce 
development innovations have occurred through our system. They 
have helped lift our State to a better economic place, but they 
are also better equipping our citizens and our communities to 
deal with what are now very challenging economic times for 
North Carolinians and for individuals across the United States.
    We were the first State in the Nation to pioneer customized 
job training as an economic development incentive. Our 
customized training programs have grown over the last 50 years 
in sophistication. We have reached 251 companies last year, 
trained 20,000 individuals.
    Frequently, we are noted for the big companies we are 
working with: Spirit Aerosystems in the east, Novartis, the 
biopharmaceutical company in Research Triangle, or Siemens in 
Charlotte. But in recent years our focus has turned not only to 
companies creating jobs but also companies that are making 
significant technology and productivity enhancements that 
sustain jobs. Increasingly, our bread and butter has become our 
State's smaller manufacturers and export-oriented companies, as 
an example, companies such as Motion Sensors, a small family 
owned business in the coastal northeastern corner of our State. 
It turned to one of our colleges to provide the training and 
support necessary to gain AS-9100 certification; and through 
this coveted quality management certification for aerospace 
they gained in October, they now are increasing their sales.
    Our experience in North Carolina is that the road to 
recovery we believe in our State is running right through the 
middle of the community college system, and we think we have 
data to confirm this claim. Since the recession began 3 years 
ago, our enrollment has surged by 28 percent. Consequently, our 
system faces significant simultaneous challenges, providing 
meaningful workforce development opportunities in an economic 
environment with significantly less job opportunity and meeting 
head-on the challenge of a surge in students who queue up in 
our registration lines.
    Significantly increasing student success and program 
completion rates is our primary strategic focus. Achieving 
these goals in an environment of both exploding demand and 
declining budgets offers a whole new level of challenges, and 
these challenges are presenting opportunities for innovation 
like never before.
    A greater focus on industry certifications and licensures 
is part of the answer, because they help us address the 
simultaneous challenges of workforce opportunity and program 
efficiency.
    First, industry defined certifications means something. 
When our students gain industry recognized credentials along 
the way to an associates degree or diploma, they enter into an 
ever-challenging job market with more industry defined 
firepower to go with their education credentials.
    Industry certifications also help us to address the 
efficiency challenge. When employers collaborate to clearly 
define their skills targets, as the National Association of 
Manufacturers certification model does, it provides us a clear 
target to focus our efforts and a framework to work across 
multiple degrees and training programs.
    That is what is happening in North Carolina right now. 
Faculty members across multiple colleges are redesigning 
curriculum standards in over 80 different degree programs using 
the NAM-endorsed system as a model. Building on a foundation of 
core academic and personal effectiveness competencies that cut 
across industries and multiple degrees, we can layer or stack 
core technical workforce competencies and industry 
certifications. The bottom line, we can be even more responsive 
to industry and more efficient in our operations, which we need 
as well.
    What we are also doing in North Carolina is we are working 
across our programs, ways in which degree programs work with 
non-degree, federally funded programs with State-funded 
programs, and we are looking for innovations across program 
areas.
    One of those areas has been an effort called Jobs Now where 
we have combined industry certification, career readiness 
certification, workforce skills where students can gain those 
skills in 6 months or less in core areas of need. In the last 2 
years, 20,000 North Carolinians have participated in that 
program and gained over 17,000 certifications.
    Real quickly, I would like to just share a story about a 
student that I met last year, one of the program participants 
in Jobs Now that I met while touring one of our mountain 
colleges.
    At a makeshift outdoor pipe-fitting training lab, a most 
unlikely looking college student named Tim Price stopped me to 
say thanks, and that is the thanks that I want to pass on to 
you today for your support of our Federally funded programs. A 
big, burly mountain of a man, all layered in his work clothes, 
Tim wanted to say thank you because, as he said with an emotion 
in his voice, for the first time in several years both he and 
his family were feeling economic hope.
    Years earlier, Tim had been one of many victims of the 
furniture company layoffs in our State, and his immediate 
family had faced several medical challenges that would have 
been difficult for someone of any economic circumstances.
    A couple of months ago, I called back to Isothermal 
Community College to check on Tim; and I was delighted to learn 
that he had recently been employed as a pipe fitter with one of 
North Carolina's energy companies making $16.40 an hour with 
medical coverage for his family.
    Tim's story illustrates something that I have heard one of 
our greatest champions, Melinda Gates, has been known to say, 
that the line between poverty and middle class today runs 
through our Nation's community colleges. I believe that. And I 
also believe it is why our mission and our focus as community 
colleges, our focus on innovation and workforce development, 
has never been more important for our citizens, our 
communities, our State and our Nation.
    Thank you.
    Chairman Graves. Thank you, Mr. Ralls.
    Our next witness is Scott Watkins. He is the CEO of Modern 
Tech Squad in Bonifay, Florida. Mr. Watkins is part of a three-
family member small business operation that provides computer 
IT services to local businesses. He is testifying on behalf of 
the Computer Technology Industry Association. Welcome.

                   STATEMENT OF SCOTT WATKINS

    Mr. Watkins. Good afternoon, Chairman Graves and Ranking 
Member Velazquez and distinguished members of the Committee.
    As mentioned, my name is Scott Watkins. I appear here on 
behalf of my company, Modern Tech Squad, and as a member of the 
Computing Technology Industry Association, also known as 
CompTIA. My company is the only CompTIA Authorized Service 
Center for computers, networks, and service support in the 
Florida panhandle.
    I want to thank Chairman Graves and members of the 
Committee for holding this hearing on the value of the industry 
led portable skills credentials. This is an extremely important 
issue for both my company and for countless other small 
businesses across the Nation.
    Small businesses are the backbone of the American economy. 
As I am sure you are aware, there are an estimated 30,000,000 
small businesses in the United States which employ over half of 
all private sector employees. An even more important statistic 
for this hearing, though, is the fact that small businesses 
hire 40 percent of all high-tech workers in the United States.
    On behalf of my company, Modern Tech Squad and CompTIA, I 
would like to share with you our perspective about the 
importance of credentials in the IT industry.
    CompTIA is a nonprofit trade association representing over 
2,000 corporate members and 1,000 business partners in the IT 
industry. Many of its members are like me, small businesses 
that provide IT services to others. CompTIA is also the leading 
global provider of vendor-neutral IT workforce certifications. 
The CompTIA Authorized Service Center credential validates an 
organization's level of technical certifications, resulting in 
competitive differentiation and customer confidence. As I 
mentioned previously, Modern Tech Squad is a CompTIA Authorized 
Service Center.
    First a brief word about CompTIA certification and why our 
company values these certifications as an important market 
differentiator.
    The success of the personal computer led the computer 
service and repair industries to commission CompTIA to create 
its vendor-neutral CompTIA A+ certification examination program 
back in 1992. Today, three-quarters of a million people hold 
the CompTIA A+ certification. The continuing success of the 
certification demonstrates an ongoing need to provide a means 
of validating skills across a wide spectrum of computer 
hardware and software.
    Following on the success of A+, CompTIA developed and 
introduced the CompTIA Network+ and the CompTIA Security+ 
certifications. Each of these certifications is industry 
driven, validating technical skills and abilities both for the 
individuals working in the IT field and for the people who hire 
and train these.
    By securing and validating core skills and knowledge, both 
job seekers and established professionals can progress to more 
complex and specialized credentials, such as vendor-specific 
hardware and software training.
    These certifications have played an important role in our 
company, Modern Tech Squad. Together with my father and my 
brother, we founded Modern Tech Squad about 3 years ago. 
Typical services that we offer provide computer-based 
diagnostics, repairs, network server support, break-fix work, 
and remote IT support.
    At the time that we started the company, my father was a 
general contractor and my brother Matt worked with him in the 
construction field. You may remember about 3 years ago as the 
economy hit bottom in the housing industry and things were 
pretty tough.
    I had, on the other hand, been an IT manager at a local 
hospital and had suggested the three of us start Modern Tech 
Squad. The availability of industry recognized vendor-neutral 
certifications through CompTIA made our business possible. With 
a new-found passion and a good deal of study from both my 
father and brother, they were able to transition from 
construction to the high-tech field of IT.
    It also interesting to note that the first time I went to 
take the CompTIA A+ exam, I actually failed the exam. My years 
of being an IT professional gave me a false sense of security 
in my knowledge about computers. The adage you only know what 
you know, that was a hard lesson that I had to learn. It opened 
my eyes for the need for certifications. I needed to learn more 
about computers and IT-specific areas, and I believe firmly 
that that has made me a better technician and a better value to 
our customers.
    Many of our customers, over half of them in fact, are small 
businesses just like us. These small businesses depend on IT 
services but are too small to have a dedicated IT department. 
We have heard horror stories of small businesses hiring an IT 
person to come in and provide a solution, claiming to know what 
the solution would be, only to realize that that was not the 
case.
    A small business simply cannot afford to spend their hard-
earned money on solutions that do not work. With a CompTIA 
certification, I know that the customer will have the peace of 
mind that their hard-earned money is being well spent on 
someone who is trained properly and who provides the right 
solutions the first time.
    CompTIA's credentials also allowed us to chart a successful 
business plan. There are over 3,800 registered IT-based service 
companies in the State of Florida. In our rural part of Florida 
in the panhandle, there are 11 such companies just in our area 
alone offering the same services that we offer.
    We felt that a great way to differentiate ourselves was to 
highlight the fact that we are CompTIA certified. Our strategy 
was dead on. In only 3 short years, we have not only held 
steady but we have grown to now 10 employees; and nothing seems 
to be in the way for growing more.
    CompTIA certifications are just the beginning for us, 
though. The concept of stackable credentials is essential to 
provide an even higher level of service to our customers. My 
brother Matt and I are currently studying for the Microsoft 
Certified Professional IT Certification, and many of our 
employees are also pursuing IT credentials in additional IT 
fields. We see a lot of opportunity for expanding our business 
based on stacking these vendor-specific certifications on top 
of the CompTIA certifications that we already hold.
    In conclusion, here is the bottom line. Industry 
certifications are a necessity. They give companies like ours, 
no matter where we are located, a chance to meet customer needs 
and consumer needs, grow our business, and branch out into 
various additional professional opportunities as technology 
evolves. Our success proves this, and it is our hope that 
others can learn from our success.
    I want to thank the Committee again for the opportunity to 
share my story with you and encourage you to support the broad 
dissemination of stackable and portable industry credentials.
    Chairman Graves. Our final witness is Mr. Scott Tadajewski. 
Mr. Tadajewski is the Executive Director of the National 
Coalition of Certification Centers in Kenosha, Wisconsin, where 
he has been involved in establishing and implementing industry 
led workforce skills certification systems in public education.
    I appreciate you being here. Thank you.

                 STATEMENT OF ROGER TADAJEWSKI

    Mr. Tadajewski. Good afternoon, Chairman Graves and Ranking 
Member Velazquez and members of the Committee. Thank you for 
this opportunity to appear here today and discuss this 
important issue of how we can work with small businesses on 
innovation approaches that can help with their workforce 
development.
    I am the Executive Director of the National Coalition of 
Certification Centers. I am here today on behalf of Gateway 
Technical College in Kenosha, Wisconsin, who is also a founding 
member of the National Coalition of Certification Centers.
    NC3 is an outgrowth of the relationship between Gateway 
Technical College and Snap-On Tool Corporation. This year, 
Gateway Technical College is celebrating its 100 years of 
service to the greater southeast region of Wisconsin. Gateway 
Technical College has been part of many business cycles over 
the last 100 years and has always responded with innovative 
approaches to meet the workplace needs of both small business 
and national industries, and today is doing the same.
    Our current business cycle is and has been very 
challenging. Gateway Technical believes that working with 
business and industry to understand new and emerging 
technologies and their impact on the local and national 
workforce issues is critically important.
    For example, the transportation industry, the aviation/
aerospace industry, energy industries, and manufacturing as 
well are bringing new technologies to the marketplace that 
impact supply chain, manufacturing processes, commercial, and 
retail service industries, many of them in the small-to-medium 
business arena. The impact today for both the workforce and the 
business owner is not only what do you know but what can you 
do, and what can you do and how can you use technology to 
improve productivity, process, and cost in a competitive 
marketplace.
    Opportunities exist for small business owners to engage 
with colleges nationally to develop technical training for the 
emerging workforce, the instructors that teach it, and for 
small businesses. Additionally, these efforts will have a 
positive cascading effect down to high schools and middle 
schools, which is equally as well critically important as when 
we think about our eighth graders out there today, within eight 
semesters they will be graduating from high school, and where 
will they be?
    This, in combination with congressional efforts that focus 
on increasing community college training for new and 
transitioning workforce, provide even greater opportunities. 
Many college presidents are proactive, as you have heard today, 
to this need, but they cannot do it alone. What do I do, how do 
I do it, and who can help me with it are some of the questions 
that are being asked out there, not only by the college 
presidents but by small business owners.
    This is part of what NC3 International Coalition of 
Certification Centers, driven by college presidents, small 
business owners, and industry, are doing. The ability today and 
in the future to provide guidance and engage in collaborative 
efforts with small business are key to developing sustainable 
workforce development systems.
    Some key recommendations today:
    Support initiatives that provide better long-range planning 
for employers and employee needs. Many Federal programs, some 
of what we have heard talked about today, address the need for 
issues. However, there still exists a skills gap out there. 
Training for today's required skills has been mentioned in the 
opening statements. We have diagnostic equipment, we have 
manufacturing equipment that are on high level. Some of the 
research that we have done finds that some of this technology, 
even with the very best professions out there, are only using 
20 percent of the capability.
    One of the things we have been focusing on is working with 
colleges and college instructors to be able to show and so that 
they become power uses of this technology and therefore that 
can cascade and transcend into the students, the emerging 
workforce, and, most importantly, our laid-off workers out 
there that are in transition right now.
    Support and encourage colleges to align academic 
requirements with technology application requirements. Small 
business owners need both to stay in business and compete.
    Support and recognize investment efforts that small 
businesses do make with local community colleges.
    Entrepreneurship partnerships with community colleges and 
small businesses are equally important. Ideas today will turn 
into market leadership in 3 years, and that also creates job 
growth in new areas.
    One example that we are working with right now today is 
with compressed natural gas and market leaders as well as small 
companies. We are all familiar with our good old gas stations. 
Well, one of the things that we are installing across this 
country is compressed natural gas fueling service stations. 
That is a whole new marketplace, a whole new set of job skill 
sets, some historical, some legacy, but with some new ones in 
there that are creating a whole new work effort.
    Fifth, support for Carl Perkins type funding for education. 
When we think about this, our small business owners are 
investing in their local community colleges. Local community 
colleges take State and local dollars and invest in buildings, 
hire staff, and core equipment needs.
    The use of funds like Perkins funding and other Federal 
dollars to buy advanced technical equipment that the local 
business owners are using and be able to train the emerging 
workforce, the incumbent workforce, and especially the 
transitioning workforce on how to use that equipment and how to 
be able to go into the job site and be able to put that into 
productive, proficient use immediately are all key to what we 
have heard today on industry recognized certifications, 
stackable credentials, and a process that leads to 
sustainability in that.
    Because the technology that we have today is going to 
continue to change. It has to change for us to remain 
competitive. So a sustainable workforce plan like this is what 
NC3 is doing and working with other associations as well to 
help drive this model to address it.
    Thank you.
    Chairman Graves. They have called two votes. So it is 
actually not going to take that long. So we are going to take a 
real short recess and go take care of those. Then we will be 
right back to ask questions.
    We will recess for, I am going to say, approximately 20 
minutes, maybe 30 minutes.
    [Recess.]
    Chairman Graves. We will call this hearing back to order 
and start right away with questions. And I have one, a fairly 
simple one; and it is for everybody out there; and then I will 
move on.
    But, Ms. McNelly, you mentioned that training programs have 
had a low priority in public education. And my question is, are 
we placing too much emphasis in high schools or in our public 
schools on preparing those students for 4-year college or 4-
year continuing education program and not paying enough 
attention, you know, to those students who aren't bound 
necessarily for college?
    I guess that is the question; and I will start with you, 
Ms. McNelly.
    Ms. McNelly. That is a great question.
    I think as a Nation culturally we have a sense that every 
young person wants to go to college. What we haven't done in 
fact is define what real college is with labor market value. 
And statistically we all recognize that not every young person 
is going to go and achieve a 4-year degree. In fact, our 
dropout rates are astounding on the completion side. We 
incentivize counselors to benchmark students towards 4-year 
degrees, and parents equally play a role. And I think we have a 
long way to go in helping parents understand that industry 
based credentials that could be achieved in high school and in 
postsecondary education are important tools that in turn allow 
somebody to have good, family sustaining wages but also a 
lifelong career that would allow them to enter back into the 
education system when possible for them.
    Chairman Graves. Dr. Ralls.
    Mr. Ralls. I believe the short answer is yes.
    You can look at data in our State. I think recent studies 
have shown that the biggest skill gap is between those jobs 
that require above high school but less than 4 years of 
college. So I think there is that issue.
    And I think everybody is in support of technical and 
vocational education. The challenge is priorities, as some say. 
Everybody is in favor of vocational education, just for other 
people's children. So it can be a real challenge.
    But I also think the longer answer is it is not that easy. 
It is not so much either/or, and too often within education we 
look at these either/or scenarios. It is not either industry 
certification or a degree. It is really both. And it doesn't 
have to be either 4-year college or technical certification or 
technical degree. When degrees combine applied skill with the 
rigor of, say, an engineering stem, those are the best 
opportunities for students, when students can take applied 
skills and move to a 4-year program.
    And what we see more and more in community colleges is we 
are becoming a new form of graduate school. Students gain 4-
year degrees and come to community colleges as somewhat of a 
finishing school. Twenty-five percent of our nursing students 
already have degrees before they enter into our programs. So it 
is not as easy as either/or, and too often I think we create 
these either/or scenarios.
    Chairman Graves. Mr. Watkins.
    Mr. Watkins. I think Dr. Ralls really nailed most of those 
points on the head. You really can't downplay the benefits that 
you get from college. Knowledge and skills that are earned in 
college are vital for any potential worker. But I think it is 
the combination of that with the credentials that make the 
workers able to be the most viable asset to small businesses in 
our case. I think that is----
    Mr. Tadajewski. You know, everything that has been said is 
right on. I think what I would add to that is a lot of--
especially for small business employers, whether they are 
coming out with a 4-year degree or coming out of high school, 
two things. A lot of students simply can't go on to 4 years 
right away even if they want to strive to that because 
financially they need some money. And if they don't have skill 
sets that only allow them to go work at Taco Bell or some place 
with minimum--they are never going to get the 4-year education. 
So providing some of these skill sets that allows them to get 
some jobs that are at small businesses, that want to develop 
them and involve that young person is critical.
    I think the other part of this is that--what has been 
mentioned already--is a lot of 4-year students that are coming 
out of colleges realize they have a lot of tremendous 
knowledge, they know a lot of things, but in today's 
marketplace--especially in this market that we are in now and 
coming out of this--is going to require what can you do. Can 
you actually put some things into practice? Although it may be 
entry level but can you take that tremendous knowledge you have 
and help us in the productivity side and bring those ideas and 
put them to work in manufacturing processes, especially in the 
supply chain, which is a big part of what we are here today 
because our small businesses are key in that supply chain.
    Chairman Graves. Thank you.
    Ranking Member Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Dr. Ralls, I would like to ask my first question to you, 
but I will want to hear the comments from the other witnesses.
    The success of efforts to tie workforce and economic 
development will depend in part been upon how quickly they can 
respond to rapid changes in technology and industrial 
processes. We know that the marketplace is constantly changing. 
So how can we build successful partnerships between educators, 
industry, government that do not just adapt training programs 
once but instead remain engaged to the constant changing 
demands of the marketplace?
    Mr. Ralls. I think you have probably hit on one of our 
greatest challenges. I think the beauty of the certification 
process that we have been talking about is community college. 
Our role with education, I think we are probably the closest of 
all educational institutions in terms of working with 
employers. That is just the nature of who we are. And in that 
regard, our role is to hit targets. If we have to define the 
target and then hit it, that is a long period of time. That is 
why we are working with certifications, working across multiple 
employers in similar areas with industry associations helps us 
in dealing with that issue of constant change. Because, as the 
employers help to define the constant change, we can keep our 
focus on the training programs and hitting the targets.
    A real challenge for community colleges now, we were 
talking about at the break, is the simultaneous challenges of 
the increase in demand. As I mentioned, in North Carolina we 
have a 28 percent increase since the recession started. The 
budget challenges that we like everyone else is facing, but 
then the real necessity to constantly be innovating in areas--
for instance, energy efficiency. We have to move energy 
efficiency ideas into HVAC programs and into automotive 
programs.
    So a real challenge for us is to be able to fly the plane 
and redesign the plane and insert new parts in the plane all at 
the same time. And that is where we struggle. That is where 
programs like the Perkins funding and others play an important 
role in helping us to have some of that resource to be able to 
do that.
    Ms. Velazquez. Yes, Ms.----
    Ms. McNelly. If I may. One additional aspect to 
certifications that benefits particularly small businesses is 
the ability to assess a set of knowledge. So that if technology 
has in fact training, you are not going to go back and retrain 
them on basic health and safety if they have been certified in 
it. You are going to get them to what is actually that 20 
percent change in technology. So in working through our 
Nation's community colleges, which we really think are on the 
front lines of redeveloping our Nation's workforce, it gives 
them the opportunity to then customize and specialize what I 
refer to as that 20 percent difference.
    When 80 percent of the core has remained the same but 20 
percent has changed, there is still a 20 percent barrier to 
employment. Grounding in industry based credentials allows 
individuals to step out of what they already know and really 
train and accelerate back into employment with that difference, 
and I think that helps with giving good guidance as Scott and 
his team are trying to hit the target.
    Ms. Velazquez. Yes.
    Mr. Watkins. Just a quick point to add to that. Coming from 
the small business sector and also from the IT field, it is 
interesting that we actually provide services for local health 
care and education systems. And I think the biggest thing in 
the IT field especially, since it is a vastly growing market, 
is getting it from the consumer to the people providing the 
services to the people training the program. Streamlining those 
targets and needs to each individual thing, I think that is 
going to be one of the key factors.
    Mr. Tadajewski. One of the things that we are working with 
NC3 is we have centers of excellence around this country. If 
you look at the middle part of the United States--Wichita, 
Oklahoma, where I am from--there is a lot of aviation. The same 
out in Seattle, North Carolina. But we also have community 
colleges across the country that have a lot of small businesses 
that support those industries. So this is one example to where, 
when we develop some curriculum, training materials, knowledge, 
how do we work with small businesses in these areas.
    One of the things NC3 is doing is to make sure we share 
that with these small businesses and other colleges around the 
country so that they don't have to reinvent the wheel. So 
whether it is certifications--certifications is one part of it. 
But to sustain it, how do you help your instructor become a 
power user? How do you integrate that model in there without 
having to restart over? Because, again, that small business 
owner has been mentioned. It has a lot of work to do, and they 
need to be able to walk into that college president's office 
and say, let us get this implemented.
    Ms. Velazquez. And, Dr. Ralls, we heard how many--the 
numbers are increasing in terms of people that lost their jobs 
and they are going for training programs. Do you have any 
metrics that measures success in terms of not the numbers 
getting to the program but in terms of job placement and job 
retention?
    Mr. Ralls. Well, our primary focus within our system now is 
student success. While we see huge numbers in terms of our 
registration lines, what we believe is we need to have those 
large numbers in our graduation lines, whether they be through 
a certification or 2-year degree or moving on to a university. 
So that is something we are working closely towards.
    But, obviously, for community colleges, in a world where 
the job opportunities are not as great, everyone is facing the 
challenge of students completing programs and concern about 
what they move into. But I do think we find opportunities for 
success, and I will give you an example.
    Two years ago, as I mentioned in North Carolina earlier, we 
pulled together to design very quickly, pulling together 
existing programs that we already had into a new form of 
program. We called it Jobs Now. It was a way in which we took 
existing things that we had and said let us provide a 6-month 
opportunity where students can gain a recognized industry 
certification, career readiness certification, which is part of 
the NAM system, as well as employability skills; and we want to 
design that all within 6 months.
    Then we did research. Before the recession, what were the 
jobs, where the gaps were, what could you do that in. And we 
gave the opportunity to the colleges, too, to define what is 
the most important opportunities that you think coming out of 
the recession will be there.
    Now, what we found is that colleges--if you looked at the 
types of programs they were putting together, the five most 
popular--three were health care, they were nursing assistant, 
phlebotomy; the other two were welding and heating and air 
conditioning programs, but a new way of delivering. And what we 
found is that with the Workforce Investment Act students who 
were funded through the Workforce Investment Act--and this has 
only been within 2 years that this program has been in 
existence--54 percent of those who participated are already 
employed. We would certainly like for that to be 100 percent. 
But in that environment, with a program that has only been in 
existence in 2 years and rethinking that, we think that is 
pretty good. And I think the focus was how do you accelerate 
and how do you target to where you think the jobs will be, 
tying the economic goals with the workforce development goals.
    Ms. Velazquez. Do you have any comments on that?
    Ms. McNelly. Just one enhancement. I was with a group of 
community college presidents yesterday. These are self-
organized college presidents that represent auto communities in 
transition, and it was Missouri and Wisconsin and Ohio. The 
entire focus was on industry based credentials and how you, in 
fact, take that acceleration market and apply it. There were a 
number of presentations that as I sat and listened where they 
were starting to track metrics associated with both not just 
traditional academic metrics that Scott and his team are 
accountable for legislatively but equally in certifications and 
in job placements.
    One of the presidents, Dr. Bryan Albrecht from Gateway 
Technical College, talked about a boot camp model that they 
have in Wisconsin. I think he said his placement was north of 
90 percent of the individuals that went through the boot camp, 
and it is because the boot camp was run like a business would 
be run and you had to show up on time and you had to be 
engaged.
    So there are, in fact, metrics that colleges are starting 
to look to that accelerate student success and hard-to-serve 
individuals who have been unemployed for extended periods of 
time back into the workforce grounded in industry based 
credentials.
    Ms. Velazquez. Thank you.
    Mr. West. Thank you, Mr. Chairman, and, also, Ms. Ranking 
member.
    I kind of want to dovetail off what Ranking Member 
Velazquez just asked. Do we see any metric that is out there 
that sees a correlation between the atrophy of skill sets with 
the length of time on unemployment? Has anyone been looking at 
that?
    Ms. McNelly. I will say to the best of my knowledge it 
hasn't been codified in research. I asked a research question 
to our Department of Education representatives yesterday in 
this forum on the automotive community, just seeing that there 
have been significant Federal investments in job training and 
retraining. And it gives us an opportunity to start to look at 
that longitudinally, but, to the best of my knowledge, they are 
not tracking them yet. But I do think the opportunity exists, 
and there certainly is a willingness to get to a more 
integrated participant support mechanism that allows for that 
to happen.
    Mr. West. Mr. Watkins, a question for you. In the IT 
field--my youngest daughter just started high school, and the 
things that she can do with a computer is unconscionable, 
especially for someone like myself. So when I think about 
certification programs, I mean, is it possible we can start 
getting--especially in the IT field--some of these 
certification programs down even into the high school level 
where we can start developing that talent even earlier instead 
of waiting later?
    I would like to get your thoughts on that.
    Mr. Watkins. First, I would like to say that I have an 18-
month old daughter and I got her a little net book and she 
seems to have outstanding--adept at using that. But interesting 
that you ask that.
    Michael Pinella, he is the local IT director for Holmes 
County School Systems, and that is something they are already 
working toward, in particular CompTIA, the certifications that 
they have at a high school level that gives a great foundation 
if they want to go directly into the workforce after high 
school or if they want to use that as a foundation for going to 
college. It is something that I think is extremely important, 
and I think that that is a very good thing to do.
    Mr. Ralls. I would echo. A good example of that is the 
Cisco programs. Cisco academies will have regional academies 
and you will have high-school-based academies that are 
cooperating with community colleges and moving onto the 
universities with CC&A and CC&P.
    And another thing about certifications that I think helps 
in this process is it is based on competency. It is not based 
on seat time. So if a student gets a certification in high 
school and a CC&A, there is no reason they have to get a CC&A 
when they get to college. And so we can be more efficient about 
education in that regard because we have trust in the standards 
that are out there. In these cases, standards that are defined 
by industry.
    Ms. McNelly. We actually have an example in San Antonio, 
Texas, with a career academy high school that is training 
individuals. They happen to support the aviation and aerospace 
industry and workforce, and we had the opportunity bring one of 
the young women to Washington. And not only did she come, she 
is a first-generation college goer now. She has graduated from 
high school. But she graduated from high school with industry 
certification and college credit. And it was 36 college credit 
hours that she walked into that community college with.
    Not only that, she is employed with an employer who in fact 
is helping to support her postsecondary education. And this in 
a family environment that didn't necessarily have an 
opportunity to understand the importance of postsecondary 
education, and she will be the first college graduate.
    And industry based certifications linked to employment, a 
number of our employers all invest in continuing education for 
their employees; and having that link and that opportunity 
really helps create and strengthen the future for those that 
traditionally have not had access.
    Mr. Tadajewski. If I could add to that. One of the things 
that we are working on is, if you think about, especially in 
our sixth, seventh, and eighth grade areas, we know we lose a 
lot of kids in math. Okay? For the math teacher today, they try 
to introduce them to--with the use of calculators, algebraic 
equations, and those type of things.
    One of the things we are doing--or going to be doing is 
through our community college--because this is part of their 
feeder system as well--is to bring an electric multimeter, a 
digital multimeter into those classrooms. Why? A multimeter is 
really just another calculator, except it gives you an actual 
measurement and gives you actual relevancy that every small 
business owner can participate, come in, and team teach--a lot 
of things to integrate that, to bring those certifications in, 
as well as keep those young people in school.
    So there are things like that that are applied. You can 
apply that to torque, all kind of things that impact 
manufacturing, small businesses, computers, assemblies, all 
those type of things. So, yes, it is absolutely important if we 
are going to change the dropout rate.
    Mr. West. And I think you just hit on the critical aspect. 
We have to make education, even in high school, relevant. It is 
not just teaching the theory. Now we need to talk about the 
practical application thereof with the local private sector so 
that we can start growing that talent that can go into that 
private sector. And every kid does not have to go to college, 
but they can have a certain skill set. They can be a 
contributing member to their community.
    Thank you very much. I yield back.
    Chairman Graves. Ms. Clarke.
    Ms. Clarke. Thank you, Chairman Graves and Ranking Member 
Velazquez; and I would like to thank our panelists for their 
testimony today.
    I would like to make it clear from the outset that I agree 
with many of the points that you have raised, that our Nation's 
educational systems need to be reformed to reflect the 
realities of a 21st century economy, and appreciate the 
valuable services that you provide to that end. Our national 
systems simply must keep pace with technological innovation or 
we will find ourselves in an even worse workforce readiness 
situation than we are in now.
    We used to live in an America where an individual with just 
a high school diploma and a healthy work ethic could get a good 
middle-class job that could sustain a family. These families 
formed the backbone of our Nation's middle class. However, this 
is increasingly no longer the case due in large part but not--
absolutely not limited to inevitable advances in technology.
    So, that being said, what I am having an issue with is the 
basic macroeconomic situation. Our consumer-spending-based 
economy finds itself in a vicious cycle where the overall lack 
of jobs feeds into an anemic consumer spending which in turn 
perpetuates our bleak job situation. For every heartening story 
like that of Tim Price which Dr. Ralls shared with us, there 
are tragically many more stories of individuals who are now 
saddled with debt from attending universities, trade schools, 
and other job training programs with the hope of improving 
their prospects yet continue to find themselves unemployed. Tax 
rates are at a historic low and interest rates are effectively 
zero, yet our economy did not add any jobs in the month of 
August. So my question to the panel is, what would be your 
suggestion to stimulate our stagnant economy?
    Ms. McNelly. I don't know that I have a silver bullet, but 
I do know that education is the pathway out for a nation. 
Because fundamentally we, as a nation, are doing more with 
less. We have the highest productivity rates that we have ever 
had. And what I do know in a manufacturing environment with big 
technology is that ultimately innovation is a human process. 
And in order for innovation to occur, though it may happen in a 
lab in the research triangle--and I have the greatest respect 
for those innovations--it truly is the frontline staff that day 
in and day out notice, if I just make this slight change, the 
entire process moves.
    I do think that having a strong foundational workforce in 
this country is critical to our long-term economic success so 
innovation can happen and we can grow jobs within small and 
medium manufacturers today.
    And I don't have the complete answer to people pursue 
careers. I think that is a right-sizing of our education 
system. And part of why we selected industry based credentials 
as the benchmark for academic success was because it changed 
the conversation from an academic conversation to an industry 
employment conversation. And those standards are updated 
through the rigor of third parties on a regular basis. So they 
are never out of date more than 3 years; and, you know, that is 
pretty current in an education environment.
    Ms. Clarke. So then let me add to the mix as the rest of 
you sort of think through how you would address my comment.
    Because the reality is that we have a lot of educated folks 
who have been graduating over the past 5 years who have all of 
the skill and ability yet they find themselves in this economy 
where hiring is not taking place, right? Highly skilled from 
every one of our top-notch universities down to any training 
programs that may exist. If the companies aren't hiring and 
these individuals are skilled, what is it? What is the mix? 
What is happening? So I will shut up so that--because my time 
is running out.
    Mr. Watkins. You mentioned the phrase the self-feeding 
anemic situation where students are leaving college, they are 
in debt, jobless, how do you fix that situation. I think Roger 
here mentioned earlier how it is important for--as Mr. West had 
mentioned, the importance of high school students acquiring 
credentials so that when they leave high school they can have 
the ability to at least enter the job workforce and begin 
working and paying for the school as they go or even if they 
leave school to have some sort of credentials that they could 
use to enter the workforce. It gives them more power over what 
they are needing.
    Mr. Tadajewski. I would like to add to that as, again, like 
Jennifer mentioned, I don't have the silver bullet here. But I 
can tell you from my experience with small business, medium 
businesses, that right now, when and if they start to hire and 
when they do hire, it is going to be a very evolving process, 
meaning the very first people hired might have to be wearing 25 
hats, just like a lot of people are wearing now today. And 
having some of these skill certifications that are multiple, 
transitional, transformational across different processes, 
sometimes maybe even different divisions within a company, are 
going to be critically important.
    Because, as the economy does grow, people come into that 
process, and whether they have a 4-year degree, a 2-year 
degree, or a set of stackable portable credentials, as I 
mentioned earlier in my testimony, is what can you do. And as a 
business grows and you may be assembling one piece for 6 
months, but then they may need to move you into another 
position that helps with quality control or whatever it might 
be.
    So those stackable credentials, whether it is in the IT 
industry, the automotive industry, the manufacturing, 
especially in the supply chain are going to be critical so that 
the transitioning workforce that is laid off right now can find 
a way into this and start to see some pieces in there.
    I think for small business as well, working with our 
technical community colleges across the country--and we heard 
from Dr. Ralls--is when they walk into these colleges today, 
they have to see today and the future. And that takes 
investment from what I mentioned before to the three legs and 
Federal dollars to help with some of this advanced technology. 
Whether it is rapid prototyping systems, five access mills, 
automotive diagnostic equipment, whatever that might be, it is 
going to take some investment. So when small business owners 
come into that community college and they see today and they 
see the future, they are knowing this is where I can get 
workforce development and become productive.
    Mr. Ralls. I also don't have the silver bullet. I 
personally believe there are no easy answers. I think we are 
through with the easy answers.
    And I know that education is certainly no guarantee of a 
job. And as an educator, I cannot guarantee anybody a job. If 
we do our jobs well as educators and in the roles we play, then 
hopefully everyone who walks through our doors has a much 
better shot at a job as a result of that, and that is the best 
we can do. And I think that is very important.
    I think in that context, too, it is important that we value 
all types of work and we value all types of colleges. Sometimes 
you hear the question, I don't know that everybody should go to 
college. I believe everybody should go to college, but I am 
including our community colleges as colleges. Now, that doesn't 
mean everybody has to get a 4-year degree, but everyone needs 
to go beyond high school. For that reason, I believe everybody 
should go to college. But we have to think about what college 
is and what college means, and even as an educator I have to 
rethink that as well. I will give you an example.
    Last year, I visited every one of our 58 colleges to talk 
about student success. I have been on this kick. We have to 
have more college completion. I visited a welding program in 
the far mountain area of our State, and the welding instructor 
walked in with a stack of pay stubs. He said, I know you have 
been on this completion kick; and I have got to tell you up 
front, only 6 percent of our students in this welding program 
complete their program. And the reason is right here, because 
they are all getting paid with jobs. Now, they weren't all 
working in the region. They were working all around the world. 
But they were not completing their programs.
    We have to step back I think sometimes and think about 
education broadly. We have to think about community colleges in 
the mix of higher education, which sometimes doesn't happen. 
And we have to think of the value of all work and how it plays 
into job opportunities, and sometimes when we get into our 
credentialism in different ways that doesn't happen. So I think 
that is important.
    Ms. Clarke. Thank you, Mr. Chairman.
    Chairman Graves. I would like to thank all of you for 
appearing here today. You have obviously given us a lot of 
insight into the private sector and some of the job training 
opportunities that are out there. But it is very insightful.
    I would ask unanimous consent that all members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, that is so ordered.
    And, with that, again we appreciate you all. Some of you 
came in a long ways, and we very much appreciate it. Sorry for 
the vote interruption.
    This hearing is adjourned. [Whereupon, at 2:39 p.m., the 
Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
